HHS/OIG, Audit -"Review of Ohio's Medicaid Hospital Outlier Payments for State
Fiscal Years 2000 Through 2003,"(A-05-04-00064)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ohio's Medicaid Hospital Outlier Payments for State
Fiscal Years 2000 Through 2003," (A-05-04-00064)
March 3, 2006
Complete
Text of Report is available in PDF format (420 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether Ohios methods of computing inpatient
cost outlier payments were reasonable.  Ohios fixed ratio method of computing inpatient
cost outlier payments was not reasonable.  Instead of using recent cost-to-charge ratios,
Ohio used outdated fixed ratios to convert allowable billed charges to outlier payments.  During
State fiscal years 2000 through 2003, cost outlier payments to hospitals under this method
exceeded estimated costs calculated using recent hospital-specific cost-to-charge ratios
by about $24.7 million ($14.5 million Federal share).  Because these payments did not
reflect an efficient and economical application of payment methodology, they were not reasonable.  Ohios
two other methods of computing costs outlier payments were reasonable.  We recommended
that the Ohio Department of Job and Family Services work with the State legislature to revise
the States fixed ratio cost outlier payment method to ensure that payments to hospitals
do not exceed the costs calculated through the application of current cost-to-charge ratios.  Ohio
agreed with our recommendation.